DOE/IG-0014




              Semiannual
              Report to
              Congress
              April 1, to September 30, 1999



              October 1999



              U.S. Department of Energy
              Office of Inspector General
The Honorable Bill Richardson
Secretary
U.S. Department of Energy
Washington, D.C. 20585

Dear Secretary Richardson:

I am pleased to submit the Office of Inspector General’s (OIG) Semiannual Report to Congress. The report
summarizes significant OIG activities and accomplishments during the 6-month period ending September 30,
1999. The Inspector General Act, as amended, requires you to forward the report to the appropriate
congressional oversight committees within 30 days of your receipt of this report.

The mission of the OIG is to assist Department managers by identifying opportunities to improve the efficiency
and effectiveness of Department programs and operations. With this goal in mind, the OIG issued reports on
nearly 50 inquiries conducted during this reporting period. These included reviews, made at your request, of
various aspects of the Department’s security affairs program. In addition, in responding to a request from the
Chairman of the Senate Committee on Governmental Affairs, this office, along with the Inspectors General at
the Departments of Commerce, Defense, State, Treasury, and the Central Intelligence Agency evaluated the
licensing process for the export of dual-use and munitions items. We participated in two hearings on this
matter.

During this reporting period, we were gratified to learn that the President’s Council on Integrity and Efficiency
cited members of our staff for awards for specific audit, investigative, and inspection efforts. The President’s
Council also acknowledged the extensive community service work of this office.

As you are aware, the core missions and functions of the Department of Energy are diverse and highly complex.
The Department faces a number of significant management challenges. In this environment, the demand for the
services provided by the Office of Inspector General is increasing. While we do not have the resources to do all
that we believe to be prudent, we are attempting to utilize the resources available to us in a way which allows
the OIG to address the Department’s most pressing challenges. Our primary objective, identifying strategies for
making Department operations more efficient and effective, is consistent with the goal for the Department that
you have stressed. In Fiscal Year 2000, we plan to emphasize reviews of Department programs relating to
security affairs; contract management; environment, safety and health; program and project management;
financial management; and, laboratory operations. We continue to examine the Department’s implementation
and execution of the Government Performance and Results Act, and we intend to emphasize the successful
pursuit of significant criminal and civil investigations.

We look forward to working with you, other Department and Administration officials and the Congress in
pursuing our mutual objectives.

                                                      Sincerely,



                                                      Gregory H. Friedman
                                                      Inspector General
Enclosure
T
able of Contents   INTRODUCTION.................................................................. 1


                   HIGHLIGHTS........................................................................ 3


                   ACCOMPLISHMENTS BY MAJOR ISSUE AREAS..... 10


                   OTHER ACCOMPLISHMENTS....................................... 31


                   MANAGEMENT CHALLENGES..................................... 35


                   INSPECTOR GENERAL ACT REPORTING
                     REQUIREMENTS ........................................................... 36


                   REPORTS ISSUED.............................................................. 37


                   STATISTICAL DATA......................................................... 42

                           Office of Audit Services............................................. 43
                           Office of Investigations.............................................. 45
                           Office of Inspections .................................................. 46
INTRODUCTION



O    verview   The Semiannual Report to Congress for the period April l to
               September 30, 1999, summarizes significant Office of
               Inspector General (OIG) audit, investigative, and inspection
               accomplishments. Also, we planned and focused our work efforts
               on the major issue areas identified as most susceptible to fraud,
               waste, and abuse. We completed reviews under the following
               issue areas:

                   •    Contract/Grant Administration
                   •    Intelligence/Counterintelligence
                   •    Safeguards and Security
                   •    Program Management and Operations
                   •    Environment, Safety, and Health
                   •    Financial Management
                   •    Administrative Safeguards
                   •    Information Technology Management

               The following statistical data summarizes the OIG’s
               accomplishments for this reporting period:


                       FY 1999 Second Half Statistical Accomplishments
               Audit and Inspection reports issued: 67
               Dollar value of recommendations that funds be put to better use:
                 $85,167,413
               Dollar value of management commitments to taking corrective actions:
                 $7,866,250
               Questioned costs: $1,233
               Open Investigations: 227
               Investigative cases closed: 41
               Open Qui Tam investigations: 20
               Open multi-agency task force and joint agency investigations: 56
               Cases referred for prosecution: 9
               Cases accepted for prosecution: 6
               Criminal and civil actions: 11
               Fines, settlements, and recoveries: $4,663,613.58
               Debarments/suspensions: 6
               Administrative discipline and other management actions: 8
               Investigative reports to prosecutors and Department management: 9
               Total Hotline calls, letters, and other complaints: 841


               In the report summaries that follow where it is indicated that
               management has not concurred with OIG recommendations,
               appropriate followup action will be pursued. When audit and
               management inspection reports contain recommendations with
               which management has agreed, corrective actions are tracked by
               the Department until completed. When there is disagreement
               between Department management and the OIG, the Department


                                                                                      1
must prepare a Management Decision describing its position and
any alternative actions. Management Decisions are reviewed by
the Chief Financial Officer (CFO). If disagreements persist, the
CFO may convene a meeting of the Departmental Internal
Control and Audit Review Council (DICARC), which consists of
the CFO, the Inspector General and other management
representatives. The DICARC works to achieve mutually
agreeable audit resolution.




                                                               2
HIGHLIGHTS

                          This section describes, by major issue area, the high profile and
                          more resource intensive work efforts of the OIG.




I
    ntelligence/          Improvements in the Department’s Counterintelligence
    Counterintelligence   Program are Ongoing

                          In February 1998 the President issued Presidential Decision
                          Directive 61 to reorganize and improve the counterintelligence
                          program at the Department. At the request of the Under
                          Secretary, the OIG evaluated the implementation status of 46
                          actions included in the Department’s Counterintelligence
                          Implementation Plan (CIP). The Department separated the 46
                          recommendations into three tiers to emphasize those that were
                          most critical.

                          We reviewed the status of the recommendations at Headquarters
                          and the three largest national laboratories. For those
                          recommendations that the Department reported as implemented,
                          at each location we reviewed documentation, observed practices,
                          and interviewed Department and laboratory counterintelligence
                          officials and FBI personnel to determine if the recommendation
                          had, in fact, been implemented. On June 1, 1999, the Department
                          reported 26 recommendations as having been implemented. We
                          found that the Department had actually understated the number of
                          implemented recommendations and that, in total, the Department
                          had implemented 28 of the 46 recommendations. The
                          Department decided it would be best to not implement one of the
                          recommendations, because that action would decrease the level
                          of interaction between its counterintelligence functions and the
                          FBI.

                          We did have some concerns regarding implementation
                          methodology and suggested a series of management actions
                          which, in our judgment, would help to ensure that the CIP is a
                          success. We found that counterintelligence elements at all levels
                          were well aware of the importance of implementing the CIP and
                          were focused on achieving its goals. (IG-0448)

                          Inquiry into the Circumstances Surrounding the Security
                          Clearance, Access, and Work Assignments of a Los Alamos
                          National Laboratory (LANL) Employee

                          At the request of the Secretary, the OIG conducted an inquiry
                          into the circumstances surrounding the security clearance, access,
                          and work assignments of a LANL employee previously identified



                                                                                              3
as a possible espionage suspect. We dedicated nearly 50 percent
of our field investigative staff full-time to this expedited 49-day
investigation. Our investigation included 97 witness interviews
and extensive records reviews, and involved in excess of 6,000
staff hours. In a classified report to the Secretary, the OIG cited
several issues that include, but are not limited to, the fact that
systemic problems existed in the Department’s management of
certain counterintelligence matters; that a lack of adequate
communication and confusion as to individual responsibilities
and accountability existed at all levels; and that several senior
employee transitions were not structured to ensure that incoming
Department and LANL officials were fully conversant with
ongoing counterintelligence matters, including details of the
history and status of the suspect’s clearance, access and work
assignments.

We identified 19 Department and/or LANL officials who had a
degree of responsibility regarding Department intelligence and
counterintelligence matters or programmatic security, a degree of
understanding with respect to the status of the request by the FBI
to keep the suspect in his position, and a certain level of
knowledge regarding the suspect’s clearance, access or work
assignments. Based on the facts contained in our report, the
Secretary concluded that, while a significant number of the 19
officials properly carried out their responsibilities based on the
information available to them, others bore responsibility in
varying degrees for failures in management, leadership, or
follow-through. The Secretary asked the LANL Director to take
disciplinary action against selected individuals at the Laboratory
whose responsibilities in the matter were clear and, who by
action or inaction, failed to meet those responsibilities.
(I99HQ010)

Inquiry into Whether Department Officials Interfered with
the Reporting of Alleged Espionage at the Los Alamos
National Laboratory

At the request of the Secretary, the OIG completed an inquiry
into allegations of delays and interference in briefing various
officials on espionage at the Department of Energy’s Los Alamos
National Laboratory (LANL). The OIG assigned 9 Special
Agents full-time and dedicated in excess of 3,300 staff hours to
the inquiry.

The OIG’s 60-day inquiry involved 82 witness interviews and
resulted in a 50-page report to the Secretary. We found that



                                                                      4
                     witnesses possessed varying degrees of recollection of facts and
                     circumstances relating to this matter. Further, we were provided
                     with conflicting versions about the reporting of the LANL
                     espionage allegations to the Secretary and the Congress. Despite
                     numerous interviews and document reviews designed to clarify
                     key matters, we were not able to reconcile the conflicting
                     information. As a consequence, we could not establish that any
                     Department official, knowingly or intentionally, improperly
                     delayed, prohibited, or interfered with briefings to the Secretary
                     or to the congressional intelligence committees. (I99HQ006)




s   afeguards and
    Security
                     Internal Report is Released Without Proper Authority

                     At the request of the Secretary, we reviewed the facts and
                     circumstances relating to the unauthorized release outside the
                     Department of an internal report that was designated
                     “Unclassified Controlled Nuclear Information.” Our 46-day
                     expedited inspection found that numerous copies of the Internal
                     Report existed, including 30 original copies and at least 31
                     reproduced copies. We determined that in excess of 125
                     Department and DOE contractor employees had access to the
                     Internal Report. We interviewed over 60 Department and DOE
                     contractor employees who had access to the Internal Report, and
                     everyone interviewed denied releasing the Internal Report outside
                     the Department.

                     Our inspection was unable to conclusively determine who
                     released the Internal Report outside the Department.




P   rogram           Export Licensing Process for Dual-Use and Munitions Needs
    Management and   Improvement
    Operations
                     At the request of the Chairman of the Senate Committee on
                     Governmental Affairs, Inspectors General from the Departments
                     of Commerce, Defense, Energy, State, and Treasury and the
                     Central Intelligence Agency initiated an interagency review to
                     evaluate the export licensing process for dual-use and munitions
                     commodities to determine whether current practices and
                     procedures are consistent with established national security and
                     foreign policy objectives. Over an 8-month period, the OIG
                     assigned 10 employees to this effort. The Inspector General
                     testified at two hearings before the Senate Governmental Affairs
                     Committee on the results of this review.




                                                                                        5
We determined that Energy’s process for reviewing export
license applications for nuclear dual-use and munitions
commodities appeared adequate. However, we identified issues
that required corrective action by Energy, as well as issues that
would best be addressed by other agencies or an interagency task
force.

A significant finding requiring action by Energy was the need to
improve the process for determining whether an export license is
required in conjunction with assignments of foreign nationals to
Energy laboratories. Guidance was not clear regarding when a
“deemed” export license would be required for an assignment
involving a foreign national. Access by a foreign national to
export controlled information is “deemed” to be exported to the
foreign national’s home country; therefore, the individual may
require an export license to access the information. The
processes at the laboratories for reviewing assignments of foreign
nationals generally rely on the host of the foreign national
assignee to determine whether there are export concerns
associated with the assignment. We found several hosts who
were not aware of, or did not understand the requirements for,
deemed export licenses and several hosts who did not appear to
appropriately exercise their host responsibilities. Also, there did
not appear to be an organization within Energy that has
management responsibility for the deemed export license process.

Other findings requiring action by Energy concerned the
adequacy of the staffing level of the organization responsible for
reviewing export license applications and access by Energy
analysts to certain intelligence information required to support
their export license activities. Regarding Energy’s actions in
response to recommendations in our 1993 report on Energy’s
export licensing process, we found that although Energy has
implemented some corrective actions, certain recommendations
may require additional review and action by Energy or
interagency coordination.

Additional findings that would best be addressed by other
agencies or an interagency task force included, among others,
whether a process is needed for the escalation of disagreements
concerning export licenses for munitions commodities and the
inability of the Commerce database to process image-type
information, which prevents electronic transmittal of certain
documents and may adversely impact the timeliness of Energy’s
review process.




                                                                     6
We recommended actions to strengthen Energy’s deemed export-
licensing process and to improve its export licensing review
process. We also recommended actions to address issues that
remain from our 1993 inspection report. Management concurred
with the findings and recommendations and initiated corrective
action. The Department promptly established an Export Control
Task Force, formed by the Under Secretary, to review export
control issues, including the Department’s treatment of deemed
exports.

On July 28, 1999, the Secretary issued revised “DOE Export
Control Guidelines” to the Heads of Department Elements and
the Directors of Department Laboratories. The Guidelines
address when a license is needed for a “deemed export” in
connection with foreign travel and foreign visits and assignments.
In addition, the Secretary tasked the Export Control Task Force
to develop recommendations to improve Headquarters support
and strengthen export control expertise in the Field. (IG-0445)

The Department Needs to Act More Promptly and Effectively
to Follow up on Corrective Actions Identified by Audit

Audit follow-up is an integral part of good management. Over
the past several years, the OIG issued reports addressing a variety
of Department challenges. Management is responsible for taking
prompt and effective corrective action on those issues where
Department concurrence has been obtained.

Although some problem areas had been addressed, we found that
the Department needs to act more promptly and effectively to
correct weaknesses identified by audit. This audit examined
management actions to address OIG findings and
recommendations in three areas—personnel security clearances,
personal property management, and quality assurance laboratory
testing. Security clearance issues had only been partially
resolved. The audit disclosed that personal property problems
had been addressed, but only after considerable time had elapsed.
Quality assurance laboratory weaknesses had not yet been
corrected.

The Department’s audit follow-up system tracked corrective
actions reported by management. The system did not, however,
verify that implemented actions addressed the underlying control
weakness, and the system did not share information on potential
weaknesses across the Department complex. Further, the impetus




                                                                  7
for corrective action usually took place outside of the formal
audit follow-up process.

To address these and other issues, we recommended that the
Department adopt a more proactive management approach to
audit follow-up. We also recommended enhancements to the
system to ensure that operational economies and efficiencies,
agreed to by management, are implemented in a prompt and
effective manner. Department management agreed with our
findings and recommendations. Senior management has recently
placed renewed emphasis on resolution and follow-up of audit
findings and the OIG recommendations from this audit would
strengthen the Department’s process. (IG-0447)

Performance Measures Need To Be Developed to Correct
Inefficiencies in Maintenance Program

Department policy requires the use of performance measures to
assess the efficiency of maintenance operations. Despite the
policy, Lockheed Martin, a management and operating
contractor, did not adequately use performance measures to
identify and correct inefficiencies in its maintenance program.
Lockheed did not adequately apply engineered time standards in
estimating jobs, nor did it use variance analysis to resolve
deviations from job plans. As a result, Lockheed missed
opportunities to improve its performance and cost-effectiveness.
If Lockheed were to improve its maintenance labor efficiency at
the Y-12 Plant by just 10 percent, it could perform additional
maintenance valued at about $3 million annually. The additional
maintenance activity could be used to reduce the current
$11.2 million backlog for plant maintenance projects. Lockheed
had known of inefficiencies in maintenance for several years.
Lockheed agreed that maintenance had been operating
inefficiently and provided a corrective action plan.

We recommended that Department management formalize and
implement the corrective action plan initiated during the audit,
and ensure that performance measures are developed and used to
identify and correct operating inefficiencies. Management
concurred and has initiated corrective action. (ER-B-99-07)




                                                                   8
IG Report Recommendations Result in Establishment of
Aviation Management Office

In our last Semiannual Report, we reported on two OIG reports
that identified the Department’s need to improve the cost
effectiveness and management of its aircraft activities.

One of the reviews identified a need for increased Department
management of aviation activities. We recommended that the
Department assign overall management responsibility and
authority for aircraft activities to a Headquarters entity.

During the reporting period, the Department established an
Office of Aviation Management to provide policy, direction, and
assistance for the Department’s aviation activities. (IG-0435 and
IG-0437)




                                                                9
ACCOMPLISHMENTS – MAJOR ISSUE AREAS

                      This section describes audit, inspection, and investigative reviews
                      not included in the preceding “Highlights” section.




C
     ontract/Grant    Contractor Claim to Have Created $13.5 Million in New Jobs
     Administration   Not Properly Supported

                      Bechtel Jacobs Company’s contract terms required it to create
                      new jobs—specifically, $11 million in new payroll in Oak Ridge,
                      Tennessee, by the end of FY 1998. Bechtel Jacobs claimed it
                      created $13.5 million in new payroll through September 30,
                      1998, but the OIG could not verify this claim. Bechtel had not
                      provided the Department with sufficient data to determine that all
                      claimed payroll had been created. The Oak Ridge Operations
                      Office verified that Bechtel National, Inc., and Jacobs
                      Engineering Group, Inc., created $4.9 million in new payroll
                      through September 30, 1998. But the only data supporting the
                      remaining $8.6 million claimed by Bechtel Jacobs were letters
                      from local companies showing the amount of new payroll
                      claimed. The Operations Office did not require Bechtel Jacobs to
                      obtain sufficiently detailed records to support the local
                      companies’ claims and accepted the letters as adequate support.
                      The Operations Office believed that company officials would not
                      sign payroll creation claims unless the claims were true. As a
                      result, the Department has little assurance that Bechtel Jacobs
                      created $13.5 million in new payroll, and Bechtel Jacobs may
                      have received up to $4.5 million in fees to which it was not
                      contractually entitled.

                      We recommended that the Department require Bethel Jacobs to
                      provide data that will enable validation of new payroll, fully
                      validate Bechtel Jacobs’ payroll creation claims, and recoup fees
                      if Bechtel Jacobs fails to meet its commitments. Although
                      management concurred with two of the three recommendations,
                      no corrective actions are planned. (ER-B-99-06)

                      Subcontract Terms and Conditions Not Fully Enforced

                      The management and operating contractor at Brookhaven
                      National Laboratory (Brookhaven) had not fully enforced the
                      terms of four subcontracts for health physics technicians. As a
                      result, Brookhaven paid about $288,000 more than necessary for
                      health physics technicians. Brookhaven reimbursed the
                      subcontractor for per diem on days it did not work and when the
                      subcontractor did not pay subsistence expenses to its technicians.
                      Brookhaven also increased the subcontracts’ fixed reimbursement


                                                                                      10
rates without adequate justification and reimbursed the
subcontractor for overtime even though the subcontract did not
provide for an overtime reimbursement rate.

We recommended that the Department recover the unreasonable
costs identified in the audit and require Brookhaven to strengthen
its subcontract administration practices. Management agreed
with the audit finding and recommendations and needs to further
examine the issues in order to determine what appropriate actions
may be required. (ER-B-99-08)

False Claims by Department Grantee Result in Civil
Settlement of $40,000 and Organizational Changes Valued at
an Estimated $157,500

The OIG received information from the U.S. Attorney’s Office in
Baltimore, Maryland, that a Department grantee misappropriated
Government funds through overpayments to a senior
advisor/consultant. This information was originally reported in a
Baltimore newspaper.

In coordination with the Defense Contract Audit Agency
(DCAA), we determined that the grantee’s consultant improperly
received contingency fee payments based on a percentage of total
Department monies received by the grantee. We further
determined that the grantee’s consultant was paid at a higher
hourly rate, and worked fewer hours, than approved by the
Department when the grant was initially awarded. The grantee
had not been given approval to increase the hourly rate or to
decrease the hours worked. The investigation revealed that the
grantee also misrepresented to the Department the actual amount
of incurred costs under the grants and misused Government funds
to finance pre-award costs and other unallowable charges.

Under the terms of a civil settlement, the grantee executed a
consent judgment for $40,000. The 3-year consent decree
requires, among other things, that the grantee create two internal
oversight committees, hire a controller to assure compliance with
applicable Federal laws and regulations, conduct annual
independent audits, implement a confidential complaint process
to encourage staff members to report suspected wrongdoing, and
file annual reports to the Department. The cost to implement
these changes is estimated at $157,500, and will be incurred by
the grantee. (I98HQ009)




                                                                 11
P   rogram           Procedures for Handling Non-Nuclear Materials Inventory
    Management and   Need Improvement
    Operations
                     In recent years, the United States significantly reduced the
                     number of weapons maintained in the stockpile. As a result, a
                     large quantity of non-nuclear materials, valued at $575 million,
                     accumulated at the Department’s Kansas City Plant, as of
                     October 1998.

                     The Department was not effectively identifying and disposing of
                     unneeded non-nuclear materials inventory at the Kansas City
                     Plant. As of October 1998, materials valued at about $275
                     million had not been reviewed and approved for retention or
                     disposal. These materials were kept in the Plant’s inventory even
                     though Kansas City officials had made a preliminary
                     determination that there was no current or future need for these
                     materials. A final decision was not made because the Kansas
                     City Plant’s inventory procedures were not detailed enough, and
                     management had not given priority attention to this issue and had
                     not developed a plan on how to reduce the inventory. As a result,
                     Kansas City incurred over $2 million annually in additional
                     storage costs, and did not benefit from the revenue that could
                     have been derived from the sale of any marketable portion of the
                     unneeded materials.

                     We recommended that the Department improve procedures for
                     handling materials inventory, create an inventory management
                     plan to address the unneeded inventory, dispose of all materials
                     determined to be excess, and verify that the inventory
                     management plan is implemented. Management concurred and
                     provided a corrective action plan for reducing the inventory. (IG-
                     0450)

                     Management of Unneeded Non-Nuclear Materials Needs
                     Strengthening

                     For more than 50 years the Department and its contractors
                     operated large production facilities and laboratories that acquired
                     and produced directly or as by-products enormous amounts of
                     non-nuclear materials such as sodium, lead, chemicals, and scrap
                     metal. A mission change resulting from the end of the Cold War
                     called into question the need for continued stockpiling of these
                     materials.

                     The Department needs to strengthen its management of unneeded
                     materials and chemicals. Large quantities of unneeded



                                                                                        12
inventories existed at many contractor sites, and Department
actions to sell or reuse these items have been fragmented. This
situation existed because the Department has not assigned
organizational responsibility and instituted an overall program to
sell, reuse, or characterize as waste its unneeded inventory. As a
result, the Department may be missing disposition opportunities
that could result in savings or reduced costs.

We recommended that Department management assign
responsibility and work with a designated Headquarters
organization to reduce the Department’s unneeded materials and
chemicals inventory to a level commensurate with current
mission requirements.

Department management agreed that there are opportunities to
improve its asset disposition program. (CR-B-99-02)


Department Authorizes Payment of Unsupported Title X—
Remedial Action Claims

Title X—Remedial Action and Uranium Revitalization (Title X)
of the Energy Policy Act of 1992—authorizes active uranium or
thorium processing site owners reimbursement for the costs of
decontamination, decommissioning, reclamation, and other
remedial action. Title X requires that reimbursement claims be
supported by reasonable documentation.

We reviewed seven remediation claims and found that the
Albuquerque Operations Office (Albuquerque) approved portions
of six claims that were properly supported. The seventh claim,
however, was approved for payment even though an $18.1
million portion of the $30.5 million claim was unsupported. The
Defense Contract Audit Agency had twice reviewed the $18.1
million portion and found no reasonable documentation to
support the claim. Despite these audit results, Albuquerque
approved the payment of the claim. The claim would not have
been approved for payment if Albuquerque had followed its
procedures for processing claims. As a result of its actions,
Albuquerque approved an unsupported claim that will cost
taxpayers about $14.7 million, the Federal portion of the
$18.1 million claim.

We recommended that Albuquerque (1) reverse the approval and
payment decision of the $14.7 million Federal portion of the
claim, and (2) follow its internal control procedures based on
Title X requirements, including procedures for approving claims


                                                                13
for payment based solely upon reasonable documentation.
Albuquerque contended that the regulations gave them certain
flexibility in the type of documentation they could accept.
Department management nonconcurred with our finding and
recommendations. (WR-B-99-04)

Robotics and Intelligent Machine Projects Not Being
Managed Cost Effectively




       Robotic Manufacturing Science and Engineering Laboratory

Robotics and Intelligent Machines (RIM) have a wide range of
applications for solving many operational challenges including
nuclear waste cleanup and weapons manufacturing and
dismantlement. Within the Department, the Offices of Defense
Programs and Environmental Management are the organizations
most involved with RIM. We estimated that Defense Programs
funded about $14 million and Environmental Management
funded about $24 million of Department RIM projects. It is
anticipated that funding for these activities will increase
substantially in the future. We focused our review on Defense
Programs RIM research and development projects to determine if
they were effectively managed.

Defense Programs RIM projects may not have been managed in
the most cost effective manner. Defense Programs did not have
accurate information regarding the number of projects funded,
the amount of funds expended, or locations where work was
being accomplished. Furthermore, Defense Programs had not
maintained such data at the Headquarters level or established a
reporting system that extracted the data from contractors




                                                                  14
performing the work. In addition, overall responsibility for RIM
activities in Defense Programs had not been assigned. The lack
of a reporting system and an integrated management approach
could result in unnecessary redundancy of projects and lessen
assurance that fund usage was prioritized and resources were
used as envisioned.

We recommended that Defense Programs establish enhanced
management controls including a central point of contact with
oversight responsibility for RIM projects. Management’s
comments did not fully satisfy the intent of our
recommendations. Defense Programs planned to establish a
mechanism to collect reliable and timely information, but did not
specify what that mechanism would be or when it would be
implemented. Defense Programs also agreed to adopt an
integrated management approach under a single point of contact
at Headquarters for all of its RIM activities should they become
part of a Departmentwide national initiative. However, the latter
action will not be consolidated into a formal program with
assigned program responsibility. With Department operating
costs from RIM activities currently exceeding $66 million per
year and expected to increase significantly, we believe adopting
an integrated management approach would be appropriate at this
time. (IG-0449)

National Laboratory Did Not Properly Account for
Laboratory Directed Research and Development and Incurs
Questionable Housing Costs

The management and operating contractor at the Department’s
National Renewable Energy Laboratory (NREL) is the only
national laboratory dedicated to furthering the development and
commercialization of renewable energy and energy efficiency
technologies. As part of its mission, NREL performs
discretionary research and development, more commonly known
as Laboratory Directed Research and Development (LDRD).
LDRD requirements stipulate that (1) projects must be in the
forefront of science and technology, and (2) non-LDRD funds
must not be used to accomplish the technical goals of a LDRD
project.

Although it was NREL’s intention to meet the Department’s
requirements for LDRD, it funded projects that were not science-
based or research and development. Of 60 projects reviewed, we
concluded that 21 did not have the characteristics of an LDRD
project. Consequently, NREL spent about $2.5 million on



                                                               15
projects that were not LDRD. In addition, NREL did not
properly account for $72,286 in LDRD costs and incurred
questionable housing allowance costs of $10,177 paid to
temporary employees.

We recommended that Department management (1) take the
necessary actions to ensure that LDRD costs are properly
accounted for, and (2) ensure that the Contracting Officer makes
a determination on the allowability of questioned housing costs
and recover any such costs determined to be unallowable.

Department management concurred with our recommendations
and has initiated or is planning corrective action. (WR-B-99-05)

Large-Scale Demonstration and Deployment Projects

Development and deployment of new technologies helps the
Department to reduce deactivation and decommissioning (D&D)
costs of about 7,000 surplus buildings. The Department’s Office
of Environmental Management uses Large-Scale Demonstration
and Deployment Projects to identify and promote the use of
improved technologies throughout the Department.

The Department was not successful in deploying newly
demonstrated technologies throughout its facilities. In FY 1998,
only 10 of 46 deployments were to Department sites that did not
originally demonstrate the technology. While several factors
may have affected the rate of deployment of the new
technologies, we noted that deployments to other Department
sites did not occur because technology end-users from these sites
were not usually members of the team managing the
demonstrations.

In addition, the Department did not control management costs of
the demonstrations. The costs of the Integrating Contractor
Teams, which manage, administer and provide technical support
for the demonstrations, represent a large percentage of the total
funds available to demonstrate technologies. In one project, for
example, these costs represented 74 percent of the $5.5 million in
total costs. Additional administrative costs also were incurred
because of repetitive procurements for contractor services.
Environmental Management had not identified or collected
specific cost information that would allow consistent analysis and
control of these costs.




                                                                16
                     We made a series of recommendations to enhance the
                     Department’s management and control of the large-scale
                     Demonstration and Deployment Projects. Department
                     management agreed with our findings and recommendations and
                     has begun corrective actions to control Project costs. (IG-0444)




E
nvironment,          Waste Incinerator Operates at Below “Permitted or
Safety, and Health   Attainable” Capacity and Generates Excessive Costs




                                 TSCA (Toxic Substances Control Act) Incinerator

                     The Toxic Substances Control Act (TSCA) Incinerator is located
                     at the East Tennessee Technology Park (ETTP) in Oak Ridge,
                     Tennessee. It is the only incinerator in the Department permitted
                     to treat TSCA-regulated, radioactively contaminated
                     polychlorinated biphenyl (PCB) waste.

                     The Department’s contractor, Bechtel Jacobs, did not operate the
                     incinerator at the 17.3 million-pound annual burn rate permitted
                     by the State of Tennessee or at the “attainable” capacity. The
                     “attainable” capacity represented the more realistic burn rate as
                     determined by Betchel Jacobs, the contractor operating the
                     incinerator.

                     Several factors contributed to the incinerator’s operating capacity
                     shortfall. The facility was designed to incinerate more waste than
                     the Oak Ridge Reservation planned to treat. Additionally,
                     current operations were limited because (1) the majority of on-
                     site waste was not sufficiently characterized for developing an
                     effective burn plan, and (2) the State of Tennessee restricted
                     incineration of out-of-state waste until such time as more local
                     waste is treated or disposed of. Between Fiscal Years 1996 and
                     1998, the Department spent about $45 million to incinerate


                                                                                     17
7.7 million pounds of waste. Had the Department been more
aggressive in incinerating the waste at Oak Ridge, the 7.7 million
pounds could have been incinerated in 1 year rather than 3 years,
at a savings of about $24 million. The 7.7 million pounds of
incinerated waste was well within the 9.2 million pound
“attainable” annual burn rate established by the contractor.
Furthermore, we determined that the waste could be treated more
economically at commercial facilities, once these treatment
options become available in June 2000. We concluded that the
Department could treat all of the Oak Ridge Reservation’s
existing inventory of incinerable waste by June 2000 and close
the incinerator at that time. This would be 39 months earlier than
planned, and would reduce operating costs by $39 million.

We recommended that the Department (1) require Bechtel Jacobs
to characterize the inventory of incinerable waste as soon as
possible to facilitate preparation of a burn plan that will allow the
TSCA Incinerator to operate more efficiently and (2) close the
TSCA Incinerator as soon as other treatment options are in place.
Management concurred with the finding and recommendations
and initiated corrective actions. (IG-0451)

Waste Cleanup Objectives Are Inconsistent With Projected
Land Uses

Department management estimates that the cleanup of the
Hanford Site (Hanford) will take over 50 years at a cost close to
$100 billion. Prior OIG reviews showed that unrealistic land use
assumptions can increase cleanup costs. During a recent review,
we found that the 200, 300, and 1100 Areas were being cleaned
consistent with projected future uses, but the 100 Area was not.
A 1995 interim Record of Decision (ROD), issued by the U.S.
Environmental Protection Agency and the Washington State
Department of Ecology, showed that Richland was cleaning the
100 Area waste sites for unrestricted use, which would make the
land suitable for residential use. Since 1992, however, projected
land uses for the 100 Area were all nonresidential. Richland cost
analyses showed that cleaning for nonresidential use could
significantly reduce cleanup costs. Although Richland could
have sought amendment of the cleanup objective specified in the
interim ROD, it did not.

In April 1999, Richland issued the draft Hanford Remedial
Action Environmental Impact Statement (HRA-EIS). The draft
included six scenarios for the future use of the entire site. None
of the scenarios included residential use. Richland anticipated



                                                                     18
issuing the HRA-EIS ROD, which would specify the
Department’s land use decision, in November 1999.

We recommended that Department management seek to amend
the 1995 interim ROD in order to achieve consistency between
projected land use and the cleanup objective. We also
recommended that the Department challenge any future cleanup
objectives that are inconsistent with projected land uses.
Management agreed with both recommendations. The
Department estimates that changing the cleanup objective from
residential to nonresidential for just three waste sites within the
100 Area could result in a $12 million savings. (IG-0446)

Management Plan for Shipping Transuranic Waste Not
Current or Consistent




      Transuranic Package Transporter (TRUPACT-II) Entering WIPP

The Department’s Carlsbad Area Office (Carlsbad) operates the
Waste Isolation Pilot Plant (WIPP) and manages the Nation’s
Transuranic (TRU) waste disposal efforts. To assist the waste
disposal efforts, Carlsbad prepared a National TRU Waste
Management Plan (Management Plan) dated December 1997.

The Management Plan was not current or consistent with the data
at the generator sites and could not be used to measure target
dates for shipping waste to WIPP. Planned schedules were based
on the generator sites securing full funding, but the largest sites
anticipated funding at approximately 75 percent. Although this
has not adversely affected the movement of waste to date, there is
no assurance that generator sites or WIPP will be able to close by
the dates cited in the Management Plan unless full funding is
received.




                                                                   19
We recommended that Department management require
Carlsbad, after receipt of the Resource Conservation and
Recovery Act, Part B hazardous waste permit, to (1) update its
Management Plan; (2) attempt to secure full funding for each
generator site; and (3) inform Congress of the impact on the
generator sites and WIPP if sufficient funding is not secured.
Department management generally concurred with the
recommendations and indicated that a revised Management Plan
will be issued later in Calendar Year 1999. (WR-B-99-06)

OIG Makes Recommendations to Improve the Department's
Accident Investigation Process, Reporting of Incidents, and
Updating of Contract Safety Clauses

As part of an OIG inspection, we reviewed an April 1997 Office
of Environment, Safety, and Health (EH) investigation report
regarding an accident involving a Lockheed Martin Energy
Systems (LMES) welder, who suffered fatal burns when his
clothing caught fire while he was using a cutting torch at the Oak
Ridge K-25 Site. We also reviewed reports of other accident
investigations conducted by EH and Department field
organizations.

Although considerable improvement has occurred in the
Department's accident investigation process since our last review
of this topic in 1996, additional improvement is needed in
identifying the root and contributing causes of accidents. We
concluded that the deficiencies we identified regarding root cause
analysis were more the result of inadequate implementation of
existing policies, procedures, and guidelines, than the result of
deficiencies in the guidance. Many of the deficiencies we
identified regarding the root cause analyses conducted by
accident investigation boards could be alleviated by assigning an
individual trained and experienced in root cause analysis as either
a member of the accident investigation board or as a technical
advisor to the board.

We determined that incidents involving welders' clothing burning
or catching fire and resulting in medical treatment, which had
been reported in the Department's Computerized Accident/
Incident Reporting System, had not been reported in the
Department's Occurrence Reporting and Processing System
(ORPS). In our judgment, these incidents were "near misses" and
should have been reported in ORPS. The term "near misses"
refers generally to incidents in which only one remaining




                                                                 20
“barrier” prevented a serious accident or injury, after other
“barriers” failed.

In addition, we found that although the 1967 revision of a
national standard regarding welding/cutting operations was
incorporated in the LMES contract, a 1994 revision of the
standard that contained a requirement concerning the selection of
welders' protective clothing had not been incorporated into the
contract at the time of the welder fatality. We concluded that
management systems should have ensured that requirements,
such as those pertaining to welders' protective clothing contained
in the 1994 revision of the national standard, had been
incorporated in the LMES contract. We also concluded that
action is required to ensure that Department contractors
immediately implement the Department order requirements
regarding compliance with the current revision of the national
standard.

The OIG report contains recommendations for corrective action
to ensure (1) the proper reporting and trending of occurrences,
including “near misses”; (2) the conduct of an annual review of
requirements, e.g., Department orders, that are listed in contracts
to ensure the requirements are current; (3) the placement of
emphasis on conducting a thorough causal analysis, to include
root cause analysis, for accident investigations; and (4) the
appropriate documentation of determinations by the Board
Chairperson regarding possible conflicts of interest resulting
from individuals serving as accident investigation board members
or advisors. Management concurred with the findings and
recommendations and initiated appropriate corrective actions.

The Department has issued a memorandum to the Heads of
Department Field Elements requesting they emphasize to
members of their staffs and contractors the importance of
reporting operational incidents that constitute precursors or near
miss events. (IG-0442)

Contractor Found Liable for Submitting False Claims
Relating to Environmental Cleanup

At the request of the Department of Justice (DOJ), the OIG
provided investigative assistance during DOJ’s pursuit of a
counterclaim against a former contractor at the Department’s
Rocky Flats Site. The contractor filed a breach of contract action
against the Department, claiming it should be reimbursed for
additional award fees. The Government argued in the



                                                                 21
counterclaim that the contractor should not have received any
award fee based on the contractor’s failure to properly dispose of
radioactive waste. During the process of filing the counterclaim,
the DOJ determined that issues in the counterclaim were closely
related to issues raised in a Qui Tam suit filed by a former
contractor employee. The DOJ subsequently intervened in the
Qui Tam action.

Two OIG Special Agents were assigned full time to the
investigation for an 18-month period. The investigation
determined that under its contract with the Department, the
contractor was responsible for converting radioactive sludge into
a solid waste form for shipment to an off-site storage facility.
The investigation developed evidence to indicate that problems
with the production and storage of radioactive waste were not
disclosed to the Department. By not disclosing the problems, the
contractor received performance awards that it would not have
otherwise received.

A trial was held in U.S. District court for the District of
Colorado. On April 1, 1999, a jury found that the contractor
submitted false claims under the False Claims Act. The jury
awarded the Government treble damages of $4.2 million. The
contractor and the Government have appealed aspects of the
verdict. (I97DN002)

Subcontractor Illegally Disposes of Pesticides

A joint investigation with the FBI and the Environmental
Protection Agency (EPA), Criminal Investigations Division,
determined that a Department subcontractor at the Idaho National
Engineering and Environmental Laboratory illegally disposed of
pesticides into a publicly owned treatment works.

The subcontractor operated a pesticide/chemical application
business. The investigation determined that the subcontractor
rinsed the spray tanks on its trucks and discharged the wastewater
containing pesticides into the public sewer system. As a result of
the investigation, the U.S. Attorney’s Office for the District of
Idaho accepted the case for criminal prosecution.

The subcontractor company pleaded guilty to one count of
illegally discharging wastewater-containing pesticides into a
sewer system in violation of the Federal Water Pollution Control
Act. A senior official of the subcontractor company entered into
a pretrial diversion agreement for violating the pre-treatment



                                                                22
             standards for disposal of pesticides to a publicly owned treatment
             works. The official will be under U.S. Probation supervision for
             a period of 18 months. The company was ordered to pay a fine
             of $25,000 and a special assessment of $200, and was sentenced
             to 5 years probation. In addition, as a result of the investigation,
             the State of Idaho Department of Agriculture fined the company
             $6,000.

             The company and senior official also were debarred from U.S.
             Government contracting for an indefinite period pending
             compliance by the company with certain conditions stipulated by
             the EPA. (I96IF003)

             Subcontractor Illegally Disposes of Hazardous Waste

             Based on allegations from an anonymous source, the OIG
             developed information that a Department subcontractor illegally
             transported and disposed of hazardous waste from the
             Department’s Superconducting Super Collider (SSC) site. The
             activities occurred in 1993 and 1994 during the shutdown process
             at SSC.

             Our investigation determined that the subcontractor illegally
             transported 18 drums containing hazardous waste generated at the
             SSC. The drums were not properly labeled because they did not
             identify the contents as hazardous. Additionally, they were not
             accompanied by an accurate hazardous waste manifest as
             required by Federal law. The drums were subsequently illegally
             buried at a waste facility in southern Texas. The waste facility
             did not have the required permits to store such hazardous waste.

             As a result of the investigation, the U.S. Attorney’s Office for the
             Southern District of Texas accepted the case for criminal
             prosecution. The subcontractor pleaded guilty to a felony
             violation of the Resource Conservation and Recovery Act. The
             subcontractor was required to pay a fine of $8,000 and a special
             assessment of $200. (I94AL011)




F
inancial     Environmental Liability – Interim Status Review Results
Management
             The Secretary directed the Office of Environmental Management
             (EM) to implement a system of controls to correct the
             environmental liability estimates material weakness identified
             during the FY 1998 financial statement audit. The Secretary also
             requested the OIG to conduct an “interim status” review to ensure
             that the controls were sufficient to correct the weakness. The


                                                                               23
OIG interim review showed that completed and planned
corrective actions, if properly implemented, should resolve the
material weakness.

EM, working closely with the CFO, has communicated the need
for better environmental liability estimates to project managers in
the field. This was evident at both Oak Ridge and Idaho where
we conducted work and found increased sensitivities toward cost
estimating and project management. For example, we found
expanded EM and CFO participation, revised baseline change
control procedures, and improved supporting documentation. In
addition, we found a genuine sense of commitment to the timely
execution of corrective actions. Although these interim results
suggest a markedly improved control structure, we consider them
preliminary based on limited audit test work, and the need for
project baseline improvements still exists. In this regard, EM
communicated to the Secretary additional actions it plans to
implement by the end of the fiscal year to further strengthen
project management.

Control Over Nuclear Material Protection, Control, and
Accounting Program Funds and Equipment Needs
Improvement

Since 1994, the Department and its national laboratories have
worked in the successor states of the Former Soviet Union (FSU)
to improve nuclear material security and accountability. The goal
of the Department’s Nuclear Material Protection, Control, and
Accounting (MPC&A) program is to reduce the threat of nuclear
proliferation and nuclear terrorism. The Department provides the
expertise, funds, and equipment to facilities in the FSU that store,
process, and/or transport plutonium or highly enriched uranium.

Although the Department accounted for funds and the purchase
of equipment it provides to the FSU under the MPC&A program,
improvements are needed to ensure that funds and equipment are
used for their intended purposes. We identified instances where
low priority upgrades were planned and funded. In a number of
locations, U.S. project teams lacked access to facilities which
impaired their ability to establish priorities and to determine that
upgrades were functioning as intended. Further, contractors did
not always adhere to strategic plan guidelines, there was limited
Federal oversight, and the Department lacked specific policy on
the minimum acceptable level of access to facilities and
information. The conditions resulted in (1) the expenditure of
approximately $929,000 for which little reduction of risk to



                                                                  24
weapons-useable nuclear material was achieved and (2) reduced
assurance that certain MPC&A upgrades were justified, properly
installed, used, and maintained.

It is also unclear whether MPC&A funds were used to pay taxes
assessed on Russian Institutes for the value of MPC&A
assistance received. The institutes had not provided the
Department with amounts paid and/or accrued. An MPC&A
Task Force member familiar with the issue estimated the amounts
to be significant. The Russian Federation recently passed
legislation that may resolve this issue. The Department is also
attempting to address this issue in an agreement under
negotiation with the Russian Ministry of Atomic Energy. Timely
resolution is important, as the conditions the MPC&A program
seeks to address are due, in part, to the financial crisis faced by
the Russian Institutes. The financial burden created by these tax
levies may further weaken economic conditions at the institutes,
exacerbating the problem that the MPC&A program is attempting
to mitigate.

We recommended a series of corrective actions the Department
needs to take to improve the MPC&A program. Department
management concurred with our finding and recommendations
and indicated that the review and related recommendations will
assist in strengthening the MPC&A program. (IG-0452)

Contractor Improperly Withdraws Cost Reduction Incentive
Program Fees from Letter-of-Credit Account

Westinghouse Savannah River Company (Westinghouse)
receives three types of fees for managing and operating the
Savannah River Site (1) award fees commensurate with its
overall performance rating, (2) Performance Based Incentive
(PBI) fees, and (3) Cost Reduction Incentive Program (CRIP)
fees.

Westinghouse correctly withdrew from the letter-of-credit
account, $51 million in award fees and $47 million in PBI fees in
Fiscal Years (FYs) 1997 and 1998. However, it withdrew
$170,400 more in CRIP fees than authorized by the Department.
Westinghouse did not have formal procedures for processing and
recording CRIP fee withdrawals. Furthermore, the Savannah
River Operations Office did not reconcile Westinghouse’s
withdrawals to the amounts authorized by the Contracting
Officer. At the completion of our audit, Westinghouse returned
$170,400 to the Department. Also, contrary to the terms of the



                                                                 25
contract, Westinghouse did not share its CRIP fees with senior
managers who suggested or implemented cost reductions. As of
January 1999, Westinghouse had accrued a liability of $109,300
in CRIP fees that had not been distributed to senior managers.
As a result, Westinghouse retained control of Department funds
to which it was not contractually entitled. Westinghouse returned
control of the $109,300, but did not return its share of the fees
totaling $970,700.

We recommended that Department management (1) establish
formal procedures to ensure withdrawals of CRIP fees are
processed and recorded accurately and are restricted to the
amounts authorized by the Contracting Officer, (2) enforce
contract requirements and establish procedures to reconcile CRIP
fees withdrawn by Westinghouse to ensure withdrawn amounts
are accurate and approved by the Contracting Officer, (3)
reconcile CRIP fee withdrawals made between FYs 1992 and
1996, (4) recover amounts determined by the Contracting Officer
to be unallowable, plus interest, (5) discontinue the practice of
awarding fees to Westinghouse for CRIP proposals suggested by
senior managers, and (6) recover $970,700 from Westinghouse.

Management concurred with the findings and four of the six
recommendations. Department management did not concur with
recommendations to discontinue awarding fees to Westinghouse
for CRIP proposals suggested by senior managers and to recover
$970,700 from Westinghouse. (ER-B-99-05)

Audit Identifies Weaknesses in Financial Management
System

In FY 1998, the Federal Energy Technology Center (FETC)
managed about $723 million in budgetary resources. The OIG
reviewed FETC’s financial management system to determine if
FETC had a funds distribution and control system to ensure
appropriated funds were managed in accordance with
congressional intent and applicable policies and procedures. We
identified needed improvements in FETC’s administration of
budgetary and accounting transactions. FETC did not have a
comprehensive system to allocate indirect costs to funding
programs and work-for-others projects. In addition, FETC did
not completely adhere to Headquarters Clean Coal budget
direction. We reached our report conclusions despite a scope
impairment. Written documentation was not always available,
and the audit team did not have ready access to key personnel




                                                               26
                who could explain certain transactions and management practices
                and procedures.

                To strengthen the FETC financial management system, we
                recommended (1) the development of policies, procedures, and
                practices to accurately collect and allocate indirect costs and
                (2) improvements in internal control procedures. We also
                recommended that the Chief Financial Officer conduct a detailed
                “for cause” review of the financial management practices at
                FETC and work with the Office of Field Management to develop
                a schedule for reviewing the financial management system of all
                Department elements. Department management concurred with
                the audit recommendations. As a result of the draft report,
                Department management initiated a 1-week review of FETC’s
                accounting and budgeting practices and agreed to conduct a more
                indepth review once FETC had an appropriate amount of time to
                implement the report’s recommendations. FETC has developed
                an action plan to correct OIG noted deficiencies and has informed
                its employees that they need to cooperate with the OIG. (IG-
                0443)




A
dministrative   National Laboratory Inappropriately Pays “Professional
Safeguards      Research or Teaching Leave” Expenses

                In March 1999, while conducting other inspection work, we
                determined that officials at the Lawrence Livermore National
                Laboratory (Livermore) had authorized and paid 24 months of
                “Professional Research or Teaching Leave” for two Livermore
                employees. These employees were research scholars at a local
                area university during this 24-month period.

                Actions taken by Livermore management officials in approving
                the leave for the two Livermore employees were inconsistent
                with the provisions of the Livermore management and operating
                contract. Specifically, Livermore officials approved the leave for
                a 24-month period of time rather than the 12 months allowed by
                the contract. In addition, Livermore officials paid an estimated
                $306,152 in unallowable wages and benefits to the two
                employees for the 12-month period in excess of that allowed by
                the contract.

                We recommended that Department management take action to
                recover the $306,152 in estimated unallowable costs and review
                the Livermore Professional Research or Teaching Leave program
                to determine if there are other situations where such leave has
                been granted in violation of the contract provisions. Management


                                                                                27
concurred with the finding and recommendations and is planning
to take the recommended actions. (INS-O-99-02)

Contractor Employee Engages in Scheme to Improperly Sell
Equipment and Fails to Disclose a Potential Conflict of
Interest

Based on a referral from a local Sheriff’s department, the OIG
investigated an allegation that a Department contractor employee
at the Idaho National Engineering Laboratory (INEL) was
involved in a fraudulent scheme to sell technological equipment.
The contractor employee was the principal investigator in charge
of a Cooperative Research and Development Agreement
(CRADA) between the Department contractor and a major oil
company to develop a special technology relating to methane
conversion. The CRADA reached a value of $1.2 million over a
3-year period.

The investigation determined that the contractor employee
formed a company in the same month that the CRADA started.
The employee then utilized his company to sell equipment to the
oil company to be used on the CRADA project. The
investigation determined that the contractor employee devised a
scheme for his company to improperly receive $23,871 for
equipment sold.

The investigation further determined that the contractor employee
failed to disclose “outside business interests” as required by
conflict of interest policy. In fact, he indicated that he did not
have outside business interests on an updated conflict of interest
form filed with the Department contractor. The contractor
employee continued to conceal his true business interests during
continued communications with officials of the Department
contractor as well as the OIG.

We referred this matter to the U.S. Attorney’s Office for the
District of Idaho where it was accepted for criminal prosecution.
The subject entered into a pretrial diversion agreement pursuant
to which he acknowledged violation of a mail fraud statute. He
will be required to be under U.S. Probation Office supervision for
a period of 18 months. (I96IF002)

Contractor Employee Pleads Guilty to Travel Related Fraud

The OIG received an allegation from a Department contractor
that a contractor employee, under the Department’s Work-for-



                                                               28
             Others (WFO) Program, fraudulently charged a Department of
             Army project for travel and labor charges. Under the
             Department’s WFO program, Department contractors, using
             Department facilities, are permitted to conduct work for other
             government agencies and private entities.

             A joint investigation with the Army Criminal Investigations
             Division substantiated that the employee submitted numerous
             false travel vouchers and timecards related to his travel,
             representing an estimated loss of nearly $65,000.

             We referred the case to the U.S. Attorney’s Office for the Eastern
             District of Washington, and it was accepted for criminal
             prosecution. The employee was subsequently indicted on 28
             counts of making false statements in violation of Title 18, U.S.C.,
             Section 1001. Following a guilty plea to one count of submitting
             a false statement, the employee was sentenced to 1-year home
             detention, 100 hours of community service, 2 years supervised
             probation, and a $100 special assessment. In addition, as a result
             of the investigation, the employee was debarred from
             Government contracting for a period of 3 years. (I97RL006)

             Oak Ridge Operations Office Prime Contractor Employee
             Sentenced for Misusing Government Credit Card

             In our last Semiannual Report, we reported that a joint
             investigation by the OIG and the Defense Criminal Investigative
             Service substantiated an allegation that an employee of an Oak
             Ridge Operations Office management and operating contractor
             had misused Government credit cards. The investigation
             disclosed that the employee used two Government credit cards to
             purchase $7,295 worth of items for personal use. The employee
             had previously pled guilty to theft of Government property.

             During this reporting period, the employee was sentenced to 2
             years of supervised probation and ordered to pay a $25 special
             assessment fee. (I98OR011)




I
nformation   Oak Ridge Contractor Employee Incarcerated for
Technology   Conversion of Government Property
Management   In our last Semiannual Report, we reported on an OIG
             investigation that substantiated an allegation from an Oak Ridge
             Operations Office contractor that an employee of the company
             had downloaded child pornography from the Internet. The
             investigation determined that the employee used a Government-


                                                                              29
owned computer to download images of child pornography. The
employee subsequently pled guilty to theft of Government
property.

During this reporting period, the employee was sentenced to 1
year of incarceration and 3 years supervised probation. The
employee was also fined $500 and ordered to pay $2,880 in
restitution to the Department. The sentencing United States
District Judge has further prohibited the employee from
possessing printed photographs or recorded material involving
child pornography and from frequenting places where such
materials are available. (I96OR035)




                                                                30
OTHER ACCOMPLISHMENTS

                        In addition to the major issue area accomplishments, we
                        completed other noteworthy accomplishments and took steps to
                        improve the OIG’s methods of operation.




C   ongressional        The OIG received 48 requests for data from Congress, all of
                        which were responded to in a timely manner. OIG staff provided
                        briefings to Committee staff on 14 occasions and data or reports
                        to Congress in 62 instances. At the request of the Senate
                        Committee on Governmental Affairs, the Inspector General
                        testified at two hearings. At the first hearing the Inspector
                        General testified on the review by the OIG of the Department’s
                        export licensing process for dual-use and munitions commodities.
                        A summary of the results of the review can be found on Page 5 of
                        this report. At the second hearing, the Inspector General joined
                        with the other Inspectors General export licensing task group
                        members in providing testimony.




M     anagement         The OIG operates an extensive Management Referral System.
      Referral System   Under this system, selected matters received through the OIG
                        Hotline or other sources are referred to the appropriate
                        Department manager or other Government agency for review and
                        appropriate action. Complaints referred may include such
                        matters as time and attendance abuse, misuse of Government
                        vehicles and equipment, violations of established policy, and
                        standards of conduct violations. We referred 125 complaints to
                        Department management and other Government agencies during
                        the reporting period. We asked Department management to
                        respond concerning the actions taken on 85 of these complaints.
                        The following are examples of the actions taken by management
                        during this reporting period on referred matters:

                           •   A management inquiry substantiated that a contractor
                               employee conducted personal business on Government
                               time, using Government equipment and office space.
                               Contractor management terminated the employee for
                               cause based on these findings.

                           •   In response to a management referral concerning a
                               subcontractor’s possible poor performance in maintaining
                               between 400-500 port-a-potties, Department management
                               requested a review of the subcontractor’s performance.
                               The review determined that the subcontractor’s
                               performance was unacceptable, and as a result, the




                                                                                       31
                                subcontractor was issued a cure notice and new
                                procedures were instituted to track the location of
                                individual port-a-potties.

                            •   A management referral alleged that a Department
                                consultant who was awaiting the clearance required to
                                fulfill a Presidential appointment was inappropriately
                                directing Department employees. In response to the
                                referral, the individual in question (1) was advised that he
                                must abide by and uphold Federal rules and regulations;
                                (2) was given an ethics briefing by the Office of General
                                Counsel; (3) was provided with managerial and
                                supervisory training; and (4) was required to attend
                                monthly meetings with higher level Department
                                management to ensure compliance with appropriate rules
                                and regulations.




I
ntelligence Activities   We issued two quarterly intelligence reports pursuant to
                         Executive Order 12863, “President’s Foreign Intelligence
                         Advisory Board.” The Order requires the Inspectors General of
                         the Intelligence Community to report to the Intelligence
                         Oversight Board concerning intelligence activities that the
                         Inspectors General have reason to believe may be unlawful or
                         contrary to Executive Order or Presidential directive.




L
    egislative and       We coordinated and reviewed 22 legislative and regulatory items.
    Regulatory           This work is done in accordance with the Inspector General Act
                         of 1978, which requires the OIG to review existing and proposed
    Reviews
                         legislation and regulations relating to Department programs and
                         operations and to comment on the impact which they may have
                         on economical and efficient operations of the Department.




C   ontractor Employee   We conducted a number of inquiries into contractor employee
    Reprisal             complaints filed pursuant to 10 C.F.R. Part 708. These
                         complaints concerned allegations that employees disclosed fraud,
    Complaints
                         waste, abuse, mismanagement, or health and safety issues or
                         engaged in other activity protected by Part 708 and that the
                         disclosure(s) contributed to adverse action by contractor
                         management against employees. We issued eight Reports of
                         Inquiry. On April 14, 1999, pursuant to a Department revision of
                         Part 708, responsibility for the processing of Part 708 complaints
                         transferred to the Department’s Office of Employee Concerns




                                                                                          32
                     and the Office of Hearings and Appeals. Pursuant to the revision
                     of Part 708, 29 cases were transferred to the Office of Hearings
                     and Appeals for the completion of the inquiry and issuance of the
                     Report of Inquiry.




D   atabase          Consistent with the spirit of the Clinger-Cohen Act, the OIG will
    Management       continue to plan and budget for information technology (IT)
                     investments that support the accomplishment of the OIG mission,
    System           goal, and objectives.

                     We will continue to identify and implement IT tools to improve
                     processes and reduce costs, evaluate and acquire hardware and
                     software upgrades that meet OIG prescribed standard workstation
                     configurations, and operate and maintain our in-house database
                     management system. Over the next year, we will focus additional
                     resources on enhancing our computer security posture to include
                     further evaluation and use of encryption capabilities, deployment
                     of the latest anti-virus protection and intrusion detection
                     software, and examination of other technology that will help
                     protect OIG computer networks and the information they process
                     from attack. Additionally, we will continue to evaluate and
                     implement Department (Corporate) IT investment initiatives.

                     As part of the overall OIG planning and budget process, all
                     proposed IT investments and strategies are reviewed annually or
                     more frequently, if required, by the Inspector General for
                     approval. For example, in FY 1999, OIG management made a
                     decision to improve the OIG website with three desired outcomes
                     (1) making more information about the OIG available to the
                     public; (2) making it easier for the public to access publicly
                     available information concerning the operation and management
                     of the OIG; and (3) providing the public with an awareness of the
                     various products and services offered by the OIG.

                     Our new database management system went on-line for OIG-
                     wide use during this reporting period. The impact of this effort is
                     monetarily significant. That is, by transferring the operation and
                     maintenance of this system from the Department of Navy's David
                     Taylor Model Basin to the OIG's in-house operation, the OIG
                     will realize an annual cost saving of about $200,000.




T
echnology Sections   In response to increased cyber threats at the Department, the OIG
                     is moving aggressively to form a Technology Crimes Section and
                     a Technology Audit Section. The mission of the Sections is to



                                                                                      33
                promote the effective, efficient, and economical operation of
                Department computer systems by providing technology-oriented
                investigative and audit services.




N
ew Millennium   During FY 1999, we began a major initiative to acquaint
Preparation     personnel with automated data acquisition and analysis
                techniques. Detailed 3-day training courses in the use of Audit
                Control Language were held in Washington, DC; Oak Ridge,
                Tennessee; and Albuquerque, New Mexico. Full-scope training
                was provided to 52 individuals from the Offices of Audit
                Services, Investigations, and Inspections. Presentations designed
                to alert management-level personnel to opportunities for applying
                automated data analysis techniques were also held in each of the
                above listed locations and were attended by over 60 persons.

                We also began a pilot implementation of an electronic workpaper
                solution in July 1999. A total of 16 pilot participants attended a
                2-day training session on electronic workpapers held in
                Washington, DC. Pilot implementation testing is proceeding in
                each of the OIG divisions described above and should conclude
                during the second quarter of FY 2000.




                                    Pilot Members Hard at Work




                                                                                34
MANAGEMENT CHALLENGES

The Inspector General plays a significant role in the Department’s Federal Managers’ Financial Integrity
Act (FMFIA) process. As part of that process, the Department details the areas of operations that it deems
most vulnerable to inefficiencies. In our previous semiannual report, we listed these as follows:

   •   Surplus Fissile Materials
   •   Environmental Compliance
   •   Waste Isolation Pilot Plant
   •   Yucca Mountain
   •   Safety and Health
   •   Contract Management
   •   Project Management
   •   Inadequate Audit Coverage
   •   Unclassified Computer Security
   •   Financial Management System Improvements

Over this reporting period and in the OIG planning processes, the OIG continued to focus efforts on these
critical issues.




                                                                                                       35
INSPECTOR GENERAL ACT REPORTING REQUIREMENTS

  IG Act                        Requirement                                            Page
  Citation

Section 4(a)(2)    Review of Legislation and Regulations                                      32

Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies                 See Write-ups

Section 5(a)(2)    Recommendations for Corrective Actions                         See Write-ups

Section 5(a)(3)    Prior Recommendations Not Yet Implemented
                   (To be reported in the Department’s Fiscal Year
                    1999 Accountability Report)

Section 5(a)(4)    Matters Referred to Prosecutive Authorities                    Pages 1 and 45

Section 5(a)(5)    Summary of Refusals to Provide Information                              None
   and 6(b)(2)

Section 5(a)(6)    List of OIG Audit Reports                                                  37

Section 5(a)(7)    Summary of Significant Audit Reports                           See Write-ups

Section 5(a)(8)    Table--Questioned Costs                                                    43

Section 5(a)(9)    Table--Funds to be Put to Better Use                                       43

Section 5(a)(10)   Summary of Prior, Unresolved Audit Reports                                 44

Section 5(a)(11)   Significant Revised Management Decisions                                None

Section 5(a)(12)   Significant Management Decisions With Which the IG Disagreed            None

Section 5(a)(13)   Summary of Unmet Remediation Plan Target Dates for                      None
                   Noncompliant Financial Systems as Required by FFMIA of 1996




                                                                                               36
REPORTS ISSUED

         AUDIT REPORTS ISSUED IN THE SECOND HALF OF FISCAL YEAR 1999


                                   Contract Audit Reports

ER-C-99-02    Interim Audit of Costs Claimed From October 1,1987, to September 30, 1998, Under a
              Cooperative Agreement Between the U.S. Department of Energy Research and
              Development Authority on the West Valley Demonstration Project, West Valley, New
              York, April 9, 1999

ER-C-99-03    Final Audit of Princeton University’s Costs Claimed for Department of the Air Force
              Contracts F19628-92-K-0024 and F30602-93C-0060, July 7, 1999
              Questioned Costs: $1,233

ER-C-99-04    Princeton University’s Cost Accounting Standards Disclosure Statement, July 30, 1999

                                 Operational Audit Reports

HQ-L-99-02    Department of Energy’s Working Capital Fund, September 24, 1999

CR-B-99-02    Management of Unneeded Materials and Chemicals, September 30, 1999
              Savings: $590,000

CR-FS-99-01   Audit Management Report of the Department of Energy’s Consolidated Financial
              Statements for Fiscal Year 1998, June 15, 1999

ER-B-99-05    Westinghouse Savannah River Company’s Withdrawal of Fees, April 8, 1999
              Questioned Costs: $1,676,400

ER-B-99-06    Bechtel Jacobs Payroll Creation, April 14, 1999

ER-B-99-07    Maintenance Activities at the Y-12 Plant, May 4, 1999

ER-B-99-08    Health Physics Technician Subcontracts at Brookhaven National Laboratory, May 12,
              1999
              Questioned Costs: $288,000

ER-L-99-03    Preparation of Programmatic and Sitewide Environmental Impact Statements, April 29,
              1999

WR-B-99-04    Approval of Title X Remediation Claims, June 25, 1999

WR-B-99-05    Management of Laboratory Directed Research and Development at the National
              Renewable Energy Laboratory, July 12, 1999
              Questioned Costs: $10,177




                                                                                                    37
WR-B-99-06    Planned Waste Shipments to the Waste Isolation Pilot Plant, August 31, 1999

WR-L-99-02    Nevada’s Stockpile Stewardship and Management Program, April 9, 1999

WR-L-99-03    Low-Level Mixed Waste Disposal at the Rocky Flats Environmental Technology Site,
              August 13, 1999

IG-0443       The U.S. Department of Energy’s Funds Distribution and Control System at the
              Federal Energy Technology Center, April 5, 1999

IG-0444       The U.S. Department of Energy’s Large-Scale Demonstration and Deployment
              Projects, May 20, 1999

IG-0446       Hanford Site Cleanup Objectives Inconsistent With Projected Land Uses, June 18,
              1999
              Savings: $12,100,000

IG-0447       The U.S. Department of Energy’s Audit Follow-Up Process, July 7, 1999

IG-0448       Review of the Status of the U.S. Department of Energy’s Counterintelligence
              Implementation Plan, July 13, 1999

IG-0449       The Office of Defense Programs Robotics and Intelligent Machines Project, July 19,
              1999

IG-0450       The U.S. Department of Energy’s Non-Nuclear Materials Inventory at the Kansas City
              Plant, July 26, 1999
              Savings: $10,000,000

IG-0451       Waste Incineration at the Oak Ridge Reservation, August 13, 1999
              Savings: $39,000,000

IG-0452       Nuclear Material Production, Control, and Accounting Program, September 16, 1999
              Savings: $929,000

                                   Financial Audit Reports

ER-FC-99-01   Alaska Power Administration Combined Financial Statements and Supplemental
              Reports, September 30, 1998 and 1997, June 24, 1999

ER-FC-99-03   Isotope Production and Distribution Program’s Fiscal Year 1998 Financial Statement
              Audits, August 31, 1999

ER-FC-99-04   Examination of Schedules of Fiscal Years 1996, 1997, and 1998 Individual Approved
              Claim Amounts and Payments for the United States Department of Energy’s Uranium
              Enrichment Decontamination and Decommissioning Fund Contained in Exhibits 4, 5,



                                                                                                   38
              and 6 of the Department’s 1998 Status Report—Reimbursements to Licensees of
              Active Uranium and Thorium Processing Sites, September 10, 1998

ER-FS-99-01   Results of Audit Procedures Performed at Chicago Operations Offices During the
              Audit of the Department’s Consolidated Fiscal Year 1998 Financial Statements,
              May 25, 1999

ER-FS-99-02   Matters Identified at the Oak Ridge Operations Office During the Audit of the
              Department’s Consolidated Fiscal Year 1998 Financial Statements, May 26, 1999

ER-FS-99-03   Matters Identified at the Savannah River Operations Office During the Audit of the
              Department’s Consolidated Fiscal Year 1998 Financial Statements, May 26, 1999

ER-FS-99-04   Results of Audit Procedures Performed at the Strategic Petroleum Reserve During the
              Audit of the Department’s Consolidated Fiscal Year 1998 Financial Statements,
              May 25, 1999

ER-V-99-02    Assessment of Changes to the Internal Control Structure and Their Impact on the
              Allowability of Costs Claimed by and Reimbursed to Princeton University’s Princeton
              Plasma Physics Laboratory Under Department of Energy Contract No. DE-AC02-
              76CH04073, April 7, 1999

ER-V-99-03    Assessment of Changes to the Internal Control Structure and Their Impact on the
              Allowability Costs Claimed by and Reimbursed to Lockheed Martin Energy Systems,
              Inc., and Lockheed Martin Energy Research Corporation Under Department of Energy
              Contract Nos.DE-AC05-84OR21400 and DE-AC05-96OR22464, June 21, 1999
              Questioned Costs: $210,467

ER-V-99-04    Assessment of Changes to the Internal Control Structure and Their Impact on the
              Allowability of Costs Claimed by and Reimbursed to Brookhaven National Laboratory
              Under Department of Energy Contract Nos. DE-AC02-76CH00016 and DE-AC02-
              98CH1088, September 10, 1999

WR-FC-99-04   Western Area Power Administration’s Boulder Canyon Power System Fiscal Year
              1998 Financial Statement Audit, April 26, 1999

WR-FC-99-05   Western Area Power Administration’s Parker-Davis Power System Fiscal Year 1998
              Financial Statement Audit, April 30, 1999

WR-FC-99-06   Agreed-Upon Procedures for the Unit Plan Contract Between the U.S. Department of
              Energy and Chevron U.S.A., Inc. for Operation of the Naval Petroleum Reserve
              Number 1, July 20, 1999

WR-FS-99-02   Matters Identified at the Albuquerque Operations Office During the Audit of the
              Department of Energy’s Consolidated Fiscal Year 1998 Financial Statements, April 7,
              1999



                                                                                                   39
WR-FS-99-03   Matters Identified at the Richland Operations Office During the Audit of the
              Department of Energy’s Consolidated Fiscal Year 1998 Financial Statements, May 3,
              1999

WR-FS-99-04   Matters Identified at the Oakland Operations Office During the Audit of the
              Department of Energy’s Consolidated Fiscal Year 1998 Financial Statements, May 17,
              1999

WR-V-99-05    Assessment of Changes to the Internal Control Structure and Their Impact on the
              Allowability of Costs Claimed by and Reimbursed to the Regents of the University of
              California, Lawrence Livermore National Laboratory Under Department of Energy
              Contract No.W-7405-ENG-48, May 17, 1999

WR-V-99-06    Assessment of Changes to the Internal Control Structure and Their Impact on the
              Allowability of Costs Claimed by and Reimbursed to Rocketdyne Propulsion and
              Power, Energy Technology Engineering Center Under Department of Energy Contract
              No. DE-AC03-76SF00700, May 17, 1999

WR-V-99-07    Assessment of Changes to the Internal Control Structure and Their Impact on the
              Allowability of Costs Claimed by and Reimbursed to Stanford Linear Accelerator
              Center Under Department of Energy Contract No. DE-AC03-76SF00515, May 27,
              1999

WR-V-99-08    Assessment of Changes to the Internal Control Structure and Their Impact on the
              Allowability of Costs Claimed by and Reimbursed to Battelle-Pacific Northwest
              National Laboratory Under Department of Energy Contract No. DE-AC06-76RL01830,
              July 28, 1999

WR-V-99-09    Assessment of Changes to the Internal Control Structure and Their Impact on the
              Allowability of Costs Claimed by and Reimbursed to Los Alamos National Laboratory
              Under Department of Energy Contract No. W-7405-ENG-36, July 30,1999
              Questioned Costs: $36,000

WR-V-99-10    Assessment of Changes to the Internal Control Structure and Their Impact on the
              Allowability of Costs Claimed by and Reimbursed to Sandia Corporation Under
              Department of Energy Contract No. DE-AC04-94Al85000, September 3, 1999
              Questioned Costs: $1,297,769

WR-V-99-11    Assessment of Changes to the Internal Control Structure and Their
              Impact on the Allowability of Costs Claimed by and Reimbursed to the Midwest
              Research Institute Under Department of Energy Contract No. DE-AC83CH10093,
              September 23, 1999




                                                                                                  40
           INSPECTION REPORTS ISSUED IN THE SECOND HALF OF FISCAL YEAR 1999 1


IG-0442                 Inspection of Selected Issues Regarding the Department of Energy Accident
                        Investigation Program, April 1, 1999

IG-0445                 Inspection of the Department of Energy's Export Licensing Process for Dual-Use and
                        Munitions Commodities, May 28, 1999

INS-O-99-02             Inspection of Lawrence Livermore National Laboratory Professional Research or
                        Teaching Leave, July 9, 1999

INS-L-99-01             Inspection of an Alleged Inappropriate Use of a Contractor by the Department of
                        Energy's Office of Counterintelligence, July 19, 1999

INS-L-99-02             Allegation of Contracting Improprieties by the Office of Counterintelligence, August 4,
                        1999




1
    Does not include 14 non-public reports.


                                                                                                             41
STATISTICS

DEFINITIONS. The following definitions, based on the Inspector General Act of 1978, apply to terms
used in this Semiannual Report.

Questioned Cost: A cost which the Inspector General questions because of:

   1. An alleged violation of a provision of a law, regulation, contract, grant, cooperative agreement, or
      other agreement or document governing the expenditure of funds;

   2. A finding that, at the time of an audit, such cost is not supported by adequate documentation; or

   3. A finding that the expenditure of funds for the intended purpose is unnecessary or unreasonable.

Unsupported Cost: A cost which the Inspector General questions because the Inspector General found
that, at the time of an audit, such cost is not supported by adequate documentation.

Disallowed Cost: A questioned cost which Department management, in a management decision, has
sustained or agreed should not be charged to the Government.

Recommendation That Funds Be Put to Better Use (“Savings”): An Inspector General
recommendation that funds could be used more efficiently if Department management took actions to
implement and complete the recommendations, including:

   1. Reduction in outlays;

   2. Deobligation of funds from programs or operations;

   3. Withdrawal of interest subsidy costs on losses or loan guarantees, insurance or bonds;

   4. Costs not incurred by implementing recommended improvements related to Department
      operations, contractors, or grantees;

   5. Avoidance of unnecessary expenditures noted in preaward reviews of contract or grant
      agreements; or

   6. Any other savings which are specifically identified.

Management Decision: The evaluation by Department management of the findings and
recommendations included in an audit report and the issuance of a final decision by Department
management concerning its response to such findings and recommendations, including actions determined
to be necessary.

Final Action: The completion of all actions that Department management has determined, in its
management decision, are necessary with respect to the findings and recommendations included in an
audit report. In the event that Department management concludes no action is necessary, final action
occurs when a management decision has been made.




                                                                                                          42
                                             AUDIT REPORT STATISTICS
                                            April 1 through September 30, 1999


The following table shows the total number of operational and financial audit reports, and the total dollar
value of the recommendations.

                                                   Total
                                                  Number   One-Time Savings    Recurring Savings    Total Savings

Those issued before the reporting period for
which no management decision has been
made:                                               13          $243,154,418       $174,520,000       $417,674,418

Those issued during the reporting period:           45           $77,167,413          $8,000,000        $85,167,413

Those for which a management decision was
made during the reporting period:                   29           $72,925,621         $65,320,000      $138,245,621

Agreed to by management:                                          $2,146,250          $5,720,000         $7,866,250
Not agreed to by management:                                     $29,281,421         $59,600,000        $88,881,421

Those for which a management decision is not
required:                                           16                   $0                  $0                   $0

Those for which no management decision had
been made at the end of the reporting period:       12          $288,894,160       $117,200,000       $406,094,160


The following table shows the total number of contract audit reports, and the total dollar value of
questioned costs and unsupported costs.

                                                                                                    Unsupported
                                                               Total Number     Questioned Costs       Costs

  Those issued before the reporting period for which no
  management decision has been made:                                 6                 $7,934,362         $84,241

  Those issued during the reporting period:                          3                    $1,233          $60,695

  Those for which a management decision was made during the
  reporting period:                                                  3                 $1,506,042              $0

  Value of disallowed costs:                                                            $874,676               $0
  Value of costs not disallowed:                                                         631,366               $0

  Those for which a management decision is not required:             1                    $1,233               $0

  Those for which no management decision had been made at
  the end of the reporting period:                                   5                 $6,552,760        $144,936




                                                                                                                    43
                         REPORTS LACKING MANAGEMENT DECISION


The following are audit reports issued before the beginning of the reporting period for which no
management decisions had been made by the end of the reporting period, the reasons ma nagement
decisions had not been made, and the estimated dates (where available) for achieving management
decisions. These audit reports are over 6 months old without a management decision.

The Contracting Officers have not yet made decisions on the following contract reports for the following
reasons. They include delaying settlement of final costs questioned in audits pending completion of
review of work papers and voluminous additional records. The Department has a system in place which
tracks audit reports and management decisions. Its purpose is to ensure that recommendations and
corrective actions indicated by audit agencies and agreed to by management are addressed and effected as
efficiently and expeditiously as possible.

ER-CC-93-05           Report Based on the Application of Agreed-Upon Procedures With Respect
                      To Temporary Living Allowance Costs Claimed Under Contract No. DE-
                      AC09-88SR18035, October 1, 1987, to September 20, 1990, Bechtel
                      National Inc., San Franciso, California, and Bechtel Savannah River, Inc.,
                      North Augusta, South Carolina, May 3, 1993
                      (Estimated date of closure: March 31, 2000)

WR-C-95-01            Independent Final Audit of Contract No. DE-AC34-RIRF00025,
                      July 26, 1990, to March 31, 1993, Wackenhut Services, Inc., Golden,
                      Colorado, March 14, 1999
                      (Estimated date of closure: March 31, 2000)

ER-C-99-01            Interim Audit of Costs Incurred Under Contract No. DE-AC24-92OR21972
                      From October 1, 1995, Through November 30, 1997, by Fluor Daniel Fernald,
                      Inc., Fernald, Ohio
                      (Estimated date of closure: March 31, 2000)

Additional time was necessary to develop management decisions for the following reports. Further
explanations for the delays follow each audit report.

CR-B-97-02            Audit of Department of Energy’s Contractor Salary Increase Fund, April 4, 1997

                      The finalization of the management decision on this report is awaiting resolution
                      of one outstanding issue. It is estimated that this will occur by January 30, 2000.

ER-B-98-02            Audit of Environmental Monitoring and Health Physics Laboratories at the
                      Savannah River Site, October 24, 1997

                      The management decision is awaiting the resolution of a nonconcurrence. It
                      should be made by February 15, 2000.




                                                                                                            44
ER-B-99-05   Westinghouse Savannah River Company’s Withdrawal of Fees, April 8, 1999

             The unresolved issues are being presented to the Departmental Internal Control
             and Audit Review Council. A management decision should be made by December
             30, 1999.

ER-B-99-06   Bechtel Jacobs Payroll Creation, April 14, 1999

             The unresolved issues are being presented to the Departmental Internal Control
             and Audit Review Council. Resolution is expected to occur by December 30, 1999.

IG-0411      Contractors Incentive Programs at the Rocky Flats Environmental
             Technology Site, August 13, 1997

             The finalization of the management decision on this report is pending the
             resolution of one outstanding legal issue. This should occur by January 15, 2000.

IG-0425      Audit of the Department of Energy’s Facility Reuse at the Rocky Flats
             Environmental Technology Site, August 20, 1998

             Final negotiations on the management decision are proceeding. It is expected that
             it will be approved by December 30, 1999

IG-0430      The U.S. Department of Energy’s Project Hanford Management Contract Costs
             and Performance, November 5, 1998

             The finalization of the management decision on this report is pending the
             resolution of complex issues. This is expected to occur by January 30, 2000.

IG-0437      Aircraft and Air Service Management Programs, January 25, 1999

             Final drafting of the management decision is underway. It is expected that it
             will be approved by December 30, 1999

IG-0440      Waste Treatment Plans at the Idaho National Engineering and Environmental
             Laboratory, February 4, 1999

             A final management decision is awaiting the completion of a review of several
             substantive issues. It is estimated that this will occur by December 30, 1999




                                                                                             45
                                                              INVESTIGATIVE STATISTICS
                                                             April 1 through September 30, 1999


           Investigations open at the start of this reporting period ....................................................................................223
           Investigations opened during this reporting period .............................................................................................45
           Investigations closed during this reporting period...............................................................................................41
           Investigations open at the end of this reporting period .....................................................................................227
           Qui Tam investigations opened............................................................................................................................... 2
                  Total open Qui Tam investigations as of 9/30/99.....................................................................................20
           Multi-agency task force investigations opened...................................................................................................... 4
                  Total open multi-agency task force investigations as of 9/30/99 ............................................................56
           Investigative reports to prosecutors and Department management ...................................................................... 9
           Recommendations to management for positive change and other actions.........................................................12
           Administrative discipline and other management actions..................................................................................... 8
           Debarments/suspensions ......................................................................................................................................... 6
           Investigations referred for prosecution................................................................................................................... 9
                  Accepted 1 ...................................................................................................................................................... 6
                  Indictments.................................................................................................................................................... 3
                  Criminal convictions .................................................................................................................................... 3
                  Pretrial diversions ........................................................................................................................................ 2
                  Civil actions ................................................................................................................................................. 3
           Fines, settlements, recoveries2 .......................................................................................................... $4,663,613.58



                                                                                Hotline Statistics


           Hotline calls, letters, and other complaints ........................................................................................................841
           Hotline calls, letters, and other complaints predicated......................................................................................218
           Hotline referrals received via the General Accounting Office ............................................................................. 9
           Total Hotline actions predicated.........................................................................................................................227
           Investigations opened on Hotline complaints ......................................................................................................12
           Hotline actions pending disposition........................................................................................................................ 0
           Hotline actions transferred to the Management Referral System.....................................................................121
           Hotline actions that required no OIG activity......................................................................................................94
           Total Hotline actions disposition........................................................................................................................227




1
    Some of the investigations accepted during the 6-month period were referred for prosecution during a previous reporting
    period.
2
    Some of the money collected was the result of task force investigations.


                                                                                                                                                                                        46
                                                                INSPECTION STATISTICS
                                                             April 1 through September 30, 1999


           Inspections open at the start of this reporting period..................................................................................... 103
           Inspections opened during this reporting period.............................................................................................. 26
           Inspections closed during this reporting period............................................................................................... 82
           Inspections open at the end of this reporting period........................................................................................ 47
           Reports issued3 ................................................................................................................................................... 19
           Reprisal complaint actions during this reporting period ................................................................................. 37
                 Reports of reprisal inquiry issued .......................................................................................................... 8
                 Reprisal complaints transferred to the Office of Hearings and Appeals............................................ 29
           Inspection recommendations
                 Accepted this reporting period............................................................................................................... 27
                 Implemented this reporting period ........................................................................................................ 14
           Complaints referred to Department management/others............................................................................... 125
                 Referrals to Department management requesting a response for OIG evaluation ............................. 85




3
    Reports include 14 non-public reports.


                                                                                                                                                                                    47
                                   FEEDBACK SHEET




The contents of the October 1999 Semiannual Report to Congress comply with the requirements of the
Inspector General Act of 1978, as amended. However, there may be additional data which could be
included or changes in format which would be useful to recipients of the Report. If you have suggestions
for making the report more responsive to your needs, please complete this feedback sheet and return it to:

                                     Department of Energy
                                     Office of Inspector General (IG-15)
                                     Washington, D.C. 20585

                                     ATTN: Wilma Slaughter



Your name:

Your daytime telephone number:

Your suggestion for improvement: (please attach additional sheets if needed)




If you would like to discuss your suggestion with a staff member of the Office of Inspector General or
would like more information, please call Wilma Slaughter at (202) 586-1924 or contact her on the Internet
at wilmatine.slaughter@hq.doe.gov.
